APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A
Order from the Third Circuit Court of Appeals
Denying Petitioner’s Petition Appeal ....................... 1a
Appendix B
Order from the United States District Court for the
Eastern District of Pennsylvania, Granting Summary
Judgment for Defendant CitiMortgage .................. 10a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
__________
No. 20-1665
__________
JEFFREY B. BROADHURST,
Appellant
v.
CITIMORTGAGE, INC.
__________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(District Court No. 2:18-cv-00121)
District Judge: Honorable Paul S. Diamond
__________
Submitted Under Third Circuit L.A.R. 34.1(a)
On November 20, 2020
Before: JORDAN, KRAUSE, and RESTREPO,
Circuit Judges
(Filed: December 11, 2020)

2a
__________
OPINION
_________
RESTREPO, Circuit Judge.
Appellant Jeffrey Broadhurst contests the
District Court’s grant of summary judgment in favor
of Appellee, CitiMortgage, Inc. (“Citi”). Broadhurst
seeks to rescue claims brought under Pennsylvania’s
Fair Credit Extension Uniformity Act (“FCEUA”), 73
P.S. § 2270, and Unfair Trade Practices and Consumer
Protection Law (“UTPCPL”), 73 P.S. § 201, as well as
for breach of contract, arising from a failed mortgage
loan modification attempt.
The District Court
concluded that Broadhurst’s inability to demonstrate
that he suffered any ascertainable loss resulting from
Citi’s alleged misrepresentations, along with his
failure to show that Citi breached any contractual
duty owed to him in the loan modification process,
meant that his claims failed as a matter of law. We
will affirm.
I. BACKGROUND
On December 15, 2004, Broadhurst and his
then-wife, Danielle Broadhurst, obtained a $354,700
loan from Citi. The Note for the loan was secured by
a mortgage against a property that Broadhurst then
purchased. For the first ten years of the loan, the Note
only required Broadhurst to make monthly interest
payments of $1,625.71. After January 1, 2015,
however, the interest rate would be subject to change
and Broadhurst’s monthly payments would include

3a
principal in addition to interest. During the initial
period, Broadhurst also was responsible for making
property tax and insurance payments on the property.
In February 2014, Broadhurst attempted to
obtain a loan modification, and on October 31 of that
year retained Attorney David Bifulco to aid him in the
process and sent a letter to Citi requesting that Citi
direct all future communication to Bifulco as his
counsel. Broadhurst maintains, however, that Citi
continued to contact him directly multiple times after
receiving the October 31 letter. Broadhurst made his
final regular loan payment to Citi in September 2014.
On July 20, 2016, Citi filed an action in state court to
foreclose upon the property, and that action remains
pending.
On October 31, 2016, Citi sent a letter to
Broadhurst and his wife outlining a Trial Plan,
participation in which could serve as a precursor for
modification of the loan. The 2016 letter stated: “You
are approved to enter into a trial period plan under the
Home Affordable Modification Program (HAMP). This
is the first step toward qualifying for more affordable
mortgage payments.” J.A. 177. Under the Trial Plan,
Broadhurst would have been required to make three
payments of $1,596.22 on December 1, 2016, January
1, 2017, and February 1, 2017. The plan further
required the payments and other paperwork to be
submitted in a timely fashion. If these conditions were
met, among others, Broadhurst’s mortgage would be
modified.
The letter also gave Broadhurst notice of how
payments would be calculated differently under a

4a
modified loan.
It explained that the difference
between the payments owed during the trial period
and those owed prior to that period would be added to
the total balance of the loan, along with other past due
amounts. It further detailed that, unlike with the
original loan, Broadhurst’s payments under a
modified loan would include an escrow for property
taxes and insurance, and that he might have to make
additional payments to cover the charges for creating
the escrow account.
In a letter dated May 16, 2017, Citi informed
Broadhurst and his wife that they had been approved
to enter into a mortgage Modification Agreement. In
keeping with what the October 2016 Trial Plan letter
had stated, the Modification Agreement called for the
establishment of an escrow account to hold
Broadhurst’s property tax and insurance payments,
and that the monthly amount due to the account
would be $935.86. These payments were the result of
an escrow shortage of $7,240.97. Broadhurst’s total
monthly payment under the loan modification would
be $2,306.56. In order to accept the terms, Broadhurst
and his wife were instructed to sign and return the
Modification Agreement to Citi by May 30, 2017.
Broadhurst maintains the letter and enclosed
Modification Agreement were not sent to him in a
timely manner, and that he only physically received
the letter after the May 30, 2017 deadline. It is
undisputed that Citi’s counsel, Powers Kirn, emailed
the letter and Modification Agreement to Broadhurst’s
counsel, Bifulco, on May 26, 2017, but Bifulco
purportedly did not receive the letter until after the
end of the Memorial Day holiday. Neither Broadhurst

5a
nor his wife signed and returned the Agreement at any
point, nor did they make any of the payments specified
by the agreement.
II. DISCUSSION 1
A. Broadhurst’s claims under the UTPCPL and
FCEUA cannot succeed
Broadhurst alleges violations of two separate
statutes. In Count One of his Complaint, Broadhurst
contends that the FCEUA was violated due to Citi’s
continued direct correspondence with him after his
retention of counsel. In Count Two, Broadhurst
alleges that Citi’s untimely sending of the
Modification Agreement to Broadhurst and his
attorney, along with Citi’s providing “contradictory
information” about the modification itself, constituted
“a per se violation of the pertinent statutes.”
Appellant Br. at 9. In Count Three, Broadhurst
alleges further violations of both statutes based on a
violation of the Truth in Lending Act, see 15 U.S.C. §
1601 et seq. None of these Counts can be sustained.

The District Court had jurisdiction under 28 U.S.C. § 1332. We
have jurisdiction under 28 U.S.C. § 1291. We review de novo the
District Court’s grant of summary judgment. Goldenstein v.
Repossessors Inc., 815 F.3d 142, 146 (3d Cir. 2016). “Viewing the
evidence in the light most favorable to the nonmovant, summary
judgment is appropriate only if there is ‘no genuine issue as to
any material fact [such] that the moving party is entitled to
judgment as a matter of law.’” Kelly v. Borough of Carlisle, 622
F.3d 248, 253 (3d Cir. 2010) (quoting Fed. R. Civ. P. 56(c)).
1

6a
The UTPCPL prohibits “[u]nfair methods of
competition and unfair or deceptive acts or practices
in the conduct of any trade or commerce.” 73 P.S. §
201-3. In Kaymark v. Bank of America, N.A., 783 F.3d
168 (3d Cir. 2015), this Court explained that a plaintiff
maintaining a private right of action under the
UTPCPL must demonstrate: (1) “ascertainable loss of
money, real or personal,” (2) “‘as a result of’ the
defendant’s prohibited conduct under the statute.” Id.
at 180 (quoting 73 P.S. § 201-9.2(a)). “[T]he loss must
be nonspeculative.” Id. (citing Schwarzwaelder v. Fox,
895 A.2d 614, 619 (Pa. Super. Ct. 2006)). Plaintiffs
must also show that this loss occurred due to their
“justifiable reliance” upon the defendant’s unlawful
conduct. Hunt v. U.S. Tobacco Co., 538 F.3d 217, 222
(3d Cir. 2008); see also Yocca v. Pittsburgh Steelers
Sports, Inc., 854 A.2d 425, 438 (Pa. 2004) (“To bring a
private cause of action” under the UTPCPL, “a
plaintiff must show that he justifiably relied on the
defendant’s wrongful conduct or representation and
that he suffered harm as a result of that reliance.”).
The FCEUA prohibits “unfair methods of
competition and unfair or deceptive acts or practices
with regard to the collection of debts.” 73 P.S. §
2270.2. Because the FCEUA is “enforced through the
remedial provision of the UTPCPL,” a plaintiff “cannot
state a claim for relief under the FCEUA if he cannot
state a claim for relief under the UTPCPL.” Kaymark,
783 F.3d at 182. In other words, if a plaintiff’s
UTPCPL claim fails, his FCEUA claim fails as well.
The District Court concluded that Broadhurst
failed to show ascertainable loss with respect to Citi’s
purported direct communications with Broadhurst

7a
and its untimely sending of the Modification
Agreement, even assuming that such conduct might
constitute false or deceptive misrepresentations under
the FCEUA and UTPCPL. The Court was correct in
doing so. First, Broadhurst’s argument that Citi’s
alleged direct contacts with him are per se violations
of the UTPCPL has no basis in Third Circuit or
Pennsylvania
case
law.
Demonstration
of
ascertainable loss, in the form of actual damages, is an
essential element of his cause of action, and
Broadhurst failed to show any actual damages as a
result of the alleged contacts.
The District Court also properly rejected
Broadhurst’s belated attempt to show ascertainable
loss at summary judgment, where he alleged for the
first time in his opposition that he suffered damages
due to lost work time, travel to the police station in
reporting Citi’s misconduct, and legal fees. We have
held that where a plaintiff “did not properly request
leave to file an amended complaint,” then “the District
Court did not abuse its discretion in not granting it.”
Ranke v. Sanofi-Synthelabo Inc., 436 F.3d 197, 206 (3d
Cir. 2006). Although Broadhurst contends that the
District Court should have granted him leave to
amend his Complaint based on the submissions
contained within his Counterstatement of Facts, he
did not actually request leave from the Court to amend
his Complaint, nor could he ground his theory of
ascertainable loss in the evidence produced in
discovery.

8a
Finally, the District Court was correct in
rejecting Counts Two and Three of Broadhurst’s
Complaint, as the October 2016 Trial Plan letter
expressly stated that the amount computed in a future
modification would include escrow for property taxes
and insurance, explaining the disparity between the
amounts owed during the Trial Plan itself and in the
period governed by the proposed Modification
Agreement.
B. Broadhurst’s breach of contract claim must also fail
In the proceedings below, Broadhurst premised
his breach of contract claim on the theory that the
monthly payment amount outlined in the Modification
Agreement was significantly higher than what had
been promised in the Trial Plan. This argument was
rejected by the District Court, and Broadhurst does
not renew it here. Instead, Broadhurst now tethers
his breach of contract claim to Citi’s alleged delay in
forwarding him the Mod-ification Agreement, along
with setting an overly restrictive timeline for the
document’s return.
In order to establish a breach of contract claim under
Pennsylvania law, a party must show “(1) the
existence of a contract, including its essential terms,
(2) a breach of a duty imposed by the contract[,] and
(3) resultant damages.” Ware v. Rodale Press, Inc.,
322 F.3d 218, 225 (3d Cir. 2003) (quoting CoreStates
Bank, N.A. v. Cutillo, 723 A.2d 1053, 1058 (Pa. Super.
Ct. 1999)). Even assuming, arguendo, that the Trial
Plan constituted a contract between Broadhurst and
Citi, Broadhurst has not cited anything in it that
specifies by when the Modification Agreement would

9a
be presented to him, or by when he would have to
consider it. Moreover, in his deposition, Broadhurst
testified that the terms of the Modification Agreement
were unacceptable, and even if he had additional time
to review its terms, he was unlikely to have accepted
them. Consequently, Broadhurst is unable to point to
a contractual duty that was breached by Citi, nor any
actual damages that he incurred due to Citi’s conduct.
III. CONCLUSION
For the foregoing reasons, we will affirm the
District Court’s grant of Citi’s motion for summary
judgment.

10a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
JEFFREY B. BROADHURST,
v.
CITIMORTGAGE, INC.,
Civ. No. 18-121
ORDER
In his largely incoherent Complaint, Plaintiff
Jeffrey B. Broadhurst, who is represented by counsel,
alleges that Defendant CitiMortgage, Inc. violated the
Fair Credit Extension Uniformity Act and the Unfair
Trade Practices and Consumer Protection Law by:
(1) failing to provide timely loan modification
paperwork; (2) directly communicating with Plaintiff,
rather than his lawyer; and (3) failing to disclose an
increase in Plaintiff’s monthly loan modification
installments. See 73 P.S. §§ 2270, 201. Plaintiff also
alleges that these wrongful actions amount to a breach
of contract. (Compl. ¶¶ 33–34.) Defendant has moved
for summary judgment, and Plaintiff has responded.
(Doc. Nos. 20, 21.) I will grant Defendant’s Motion and
enter judgment in favor of Citi.

11a
I.

PROCEDURAL HISTORY

On January 10, 2018 Defendant timely
removed this matter from state court, invoking
diversity jurisdiction. (Notice of Removal, Doc. No. 1
at ¶¶ 12–23); 28 U.S.C. § 1332. The Parties, unable to
resolve the matter, completed discovery. Defendant
then filed the instant Motion with accompanying
exhibits and a statement of material facts. (Doc. No.
20.) Plaintiff responded eight days after his deadline
to do so. (Doc. Nos. 21, 22, 23.) Defendant has replied.
(Doc. No. 24.)
II.

LEGAL STANDARD

I may grant summary judgment “where the
moving party has established that there is no genuine
dispute of material fact and ‘the moving party is
entitled to judgment as a matter of law.’” Hugh v.
Butler Cty. Family YMCA, 418 F.3d 265, 266 (3d Cir.
2005) (quoting Celotex Corp. v. Catrett, 477 U.S. 317,
322(1986)); see Fed. R. Civ. P. 56(c). I “must view the
facts in the light most favorable to the non-moving
party,” and make every reasonable inference in that
party’s favor. Hugh, 418 F.3d at 267. If I then
determine that there is no genuine issue of material
fact, summary judgment is appropriate. Celotex, 477
U.S. at 322.
Summary judgment is appropriate where the
moving party shows that there is an absence of
evidence to support the nonmoving party’s case. Id. at
325. Where the moving party identifies such an
absence, the nonmoving party “must rebut the motion
with facts in the record and cannot rest solely on
assertions made in the pleadings, legal memoranda, or

12a
oral argument.” Berckeley Inv. Grp., Ltd. v. Colkitt,
455 F.3d 195, 201 (3d Cir. 2006).
III.

FACTUAL BACKGROUND

I have resolved all factual disputes and
construed all facts in Plaintiff’s favor. Hugh, 418 F.3d
at 267. I have disregarded factual allegations that
Plaintiff makes without any evidentiary support. See
Celotex, 477 U.S. at 322–23; Jones v. UPS, 214 F.3d
402, 407 (3d Cir. 2000) (requiring more than
“unsupported allegations” to defeat summary
judgment). Although Plaintiff includes only one
citation to the record in his counter-statement of
material facts, I have considered those counterstatements for which I have found evidentiary
support.
Plaintiff
and
his
then-wife,
Danielle
Broadhurst, obtained a $354,700 loan from Citi in a
December 15, 2004 Note. (Compl. ¶¶ 1, 3; Def.’s Stmt.
Mat. Facts ¶ 1; Def.’s App. Ex. A, Doc. No. 20-3.) The
Note was secured by a mortgage against property
located in Landsdale, PA. (Id.) Plaintiff used the loan
proceeds to purchase that property. (Def.’s Stmt. Mat.
Facts ¶ 2.)
The Note required monthly interest payments
of $1,625.71 from February 1, 2005 through January
1, 2015. (Id. at ¶ 3; Def.’s App. Ex. A ¶¶ 3–4.) On
January 1, 2015, the interest rate was subject to
change, and payments would then include both
principal and interest. (Def.’s App. Ex. A ¶ 4.) These
monthly payments did not cover property tax and
insurance costs. (Def.’s Stmt. Mat. Facts. ¶ 4; Pl.’s
Stmt. Mat. Facts 1, Doc. No. 23; Alsiweadi Dec., Doc.

13a
No. 20-6.)
Rather, Plaintiff and his wife were
responsible for making property tax and insurance
payments “unless and until” Citi required Plaintiff to
create an escrow account. (Id.)
In February 2014, Plaintiff attempted to
refinance the mortgage, and in October 2014 he hired
Attorney David Bifulco to help him obtain a loan
modification. (Compl. ¶ 4; Def.’s Stmt. Mat. Facts.
¶¶ 8–9.) On October 31, 2014, Bifulco sent Citi a letter
demanding that Citi “cease and desist from contacting
the plaintiff” and instead contact Plaintiff through
counsel. (Compl. ¶ 5.) After “agents conduct[ed]
surveillance on the plaintiff’s property to the point
that police were called,” Bifulco sent another notice
asking Defendant to communicate “any and all
matters” to him, rather than to his client. (Id. at ¶ 6–
7.) Plaintiff made his last regular monthly loan
payment to Citi in September 2014. (Def.’s Stmt. Mat.
Facts. ¶ 11; Alsiweadi Dec. ¶ 14.)
On July 25, 2016, Citi filed for foreclosure
against Plaintiff and his wife in the Montgomery
County Common Pleas Court. (Compl. ¶ 8.) That
action remains pending. (Compl. ¶ 8; Def.’s Stmt. Mat.
Facts. ¶ 12.) Bifulco represents Plaintiff in the
foreclosure action, and Powers Kirn, LLC represents
Citi. (Def.’s Stmt. Mat. Facts ¶ 13.)
On October 31, 2016, Citi sent Plaintiff and his
wife a letter stating: “You are approved to enter into a
trial period plan under the Home Affordable
Modification Program (HAMP).” (Def.’s App. Ex. I,
Doc. No. 20-11; Def.’s Stmt. Mat. Facts ¶ 16.) The plan
required Plaintiff to make three separate $1,596.22

14a
payments on December 1, 2016, January 1, 2017, and
February 1, 2017. (Def.’s App. Ex. I; Def.’s Stmt. Mat.
Facts ¶ 17.) The letter further explained that
Plaintiff’s loan would be modified only if certain
conditions were met, including timely receipt of trial
payments and paperwork. (Def.’s App. Ex. I; Def.’s
Stmt. Mat. Facts ¶ 18; Pl.’s Stmt. Mat. Facts 2.) The
letter also provided:
Any difference between the amount of the trial
period payments and your regular mortgage
payment will be added to the balance of your loan
along with any other past due amounts as
permitted by your loan documents. While this will
increase the total amount that you owe, it should
not significantly change the amount of your
modified mortgage payment.
(Def.’s App. Ex. I at page 5; Def.’s Stmt. Mat. Facts.
¶ 19.)
The letter also advised that if Plaintiff’s loan were
permanently modified, new payments would include
an escrow for property taxes and insurance. (Def.’s
App. Ex. I at page 6.) If Plaintiff’s property taxes or
insurance increased, his monthly payments would
increase as well. (Id.) Finally, the October 31 letter
provided that Plaintiff would agree to the creation of
an escrow account, and that he might have to make
additional payments to cover the charges for creating
such an account. (Id. at 4, 8.)
In its May 16, 2017 letter, Citi informed
Plaintiff and his wife that they had been approved for
a Home Affordable Modification. (Def.’s App. Ex. J,
Doc. No. 20-12; Def.’s Stmt. Mat. Facts. ¶ 23.) To

15a
accept the offer, Plaintiff and his wife had to sign and
return the enclosed Modification Agreement by May
30, 2017. (Id.) On May 26, 2017, Powers Kirn emailed
the May 16 letter and the Modification Agreement to
Bifulco. (Pl.’s Stmt. Mat. Facts 3; Def.’s App. Ex. K,
Doc. No. 20-13.)
The letter stated that an escrow account had
been created for property taxes and insurance, and
that the monthly escrow payment would be $935.86.
(Def.’s App. Ex. J at 4; Def.’s Stmt. Mat. Facts. ¶ 25.)
Citi further explained that the monthly $935.86
payments resulted from an escrow shortage of
$7,240.97. (Def.’s App. Ex. J at 4.) In total, the
Modification Agreement presented in the May 16
letter provided for a forty-year term with monthly
payments of $2,306.56 (monthly escrow payments
plus monthly principal and interest payments). (Id.
¶¶ 3(E), 3(F).)
Bifulco purportedly did not see the email from
Powers Kirn until after he returned to work from his
Memorial Day holiday. (Pl.’s Stmt. Mat. Facts 3.)
Plaintiff purportedly did not receive the Modification
Agreement and May 16, 2017 letter until after the
submission deadline had passed. (Id.)
Plaintiff did not sign or return the Modification
Agreement, nor did he make any of the monthly
$2,306.56 payments. (Def.’s Stmt. Mat. Facts ¶¶ 29–;
Pl.’s Stmt. Mat. Facts 5; Alsiweadi Dec. ¶ 12.) Plaintiff
testified that the terms in the Modification Agreement
were “unacceptable” and that he probably would not
have agreed to them, even if he had been allowed time

16a
to review them with Bifulco. (Broadhurst Dep. 130–
31.)
IV.

DISCUSSION

Plaintiff alleges: (1) two violations of the
UTPCPL and FCEUA (73 P.S. §§ 201, 2270);
(2) one violation of the UTPCPL and FCEUA
predicated upon a Truth in Lending Act violation (15
U.S.C. § 1601); and (3) breach of contract. All four
counts will be dismissed.
A.

FCEUA/UTPCPL Claims

Plaintiff alleges in Count One that Citi violated
the FCEUA by directly contacting Plaintiff when he
was represented by counsel, and by sending the
permanent modification agreement in an untimely
manner. (Compl. ¶¶ 17–20); 73 P.S. § 2270.4(b)(2).)
Plaintiff alleges in Count Two that the increase in
monthly payments from the trial period plan to the
permanent modification agreement constituted a
“false, deceptive, or misleading representation.”
(Compl. ¶¶ 23–26); 73 P.S. § 2270.4(b)(5). Both claims
are baseless.
The FCEUA prohibits “unfair methods of
competition and unfair or deceptive acts or practices
with regards to the collection of debts.” 73 P.S. §
2270.2 (2000); Kaymark v. Bank of Am., N.A., 783 F.3d
168, 182 (3d Cir. 2015). Under the statute, “[i]f a debt
collector or creditor engages in an unfair or deceptive
debt collection act or practice, . . . it shall constitute a
violation of” the UTPCPL. § 2270.5. The Third Circuit
has thus held that the FCEUA “is enforced through

17a
the remedial provision of the UTPCPL.” Kaymark,
783 F.3d at 182. Accordingly, to make out a claim for
relief under the FCEUA, Plaintiff must also make out
a claim for relief under the UTPCPL. Id.
“To maintain a private right of action under the
UTPCPL,
a
plaintiff
must
demonstrate:
(1) ‘ascertainable loss of money or property, real or
personal,’ (2) ‘as a result of’ the defendant’s prohibited
conduct under the statute.” Id. at 180 (quoting 73 P.S.
§ 201-9.2(a)). The UTPCPL allows for statutory
damages of $100 per violation if the plaintiff can
demonstrate an ascertainable loss, which “must be
non-speculative.” 73 P.S. § 201-9.2(a); Kaymark, 783
F.3d at 180 (citations omitted). The Plaintiff thus
“must be able to show an actual loss of money or
property.” Jarzyna v. Home Properties, L.P., 185
F.Supp.3d 612, 626 (E.D. Pa. 2016) (citing Kaymark,
783 F.3d at 180). Attorney fees are not considered an
ascertainable loss under the FCEUA and the
UTPCPL. Grimes v. Enterprise Leasing Co. of
Philadelphia, LLC, 105 A.3d 1188, 1193 (Pa. 2014)
(“mere acquisition of counsel” is not an ascertainable
loss). Finally, “a plaintiff’s loss-causing reliance on
the prohibited conduct must be justifiable for such
conduct to give rise to a UTPCPL claim.” Walkup v.
Santander Bank, N.A., 147 F.Supp.3d 349, 358 (E.D.
Pa. 2015) (citing Yocca v. Pittsburgh Steelers Sports,
Inc., 854 A.2d 425, 438 (Pa. 2004)).
In sum, to succeed on his first two claims,
Plaintiff must demonstrate both that Citi made a
false, deceptive, or misleading representation, and
that he suffered an ascertainable loss as a result of his
justifiable reliance on any such misrepresentation.

18a
Citi’s Contacts and “Untimely” Paperwork
Assuming, arguendo, that Citi’s repeated
communications with Plaintiff and Citi’s alleged
failure to send timely paperwork constituted false or
deceptive misrepresentations under the FCEUA and
UPTCPL, there is no evidence that he suffered any
ascertainable loss as a result of those contacts or
untimeliness. Plaintiff alleges only that he is entitled
to statutory damages under the UPTCPL as a result
of the challenged contacts. (Interrogatory Responses
2, Doc. No. 20-15.) As I have discussed, the UPTCPL
allows for those damages only if a plaintiff can show
ascertainable loss.
He alleges no quantifiable
damages caused by the contacts or the “untimely”
paperwork.
Remarkably, Plaintiff responds that he
“believes that the UTPCPL and the FCEUA never
contemplated that a plaintiff should have to prove out
of pocket losses for receipt of prohibited
communications.” (Opp. Summ. J. at 4, Doc. No. 21.)
This “belief”—which Pennsylvania courts have
rejected—is no response at all. See Kaymark, 783 F.3d
at 180, 182.
Finally, in opposing summary judgment,
Plaintiff alleges for the first time that he suffered an
ascertainable loss because he was forced to travel to
the police station to report Citi’s alleged misconduct,
he lost work time addressing his dispute with Citi, and
he had to pay legal fees. (Opp. Summ. J. at 5.) These
belated allegations are impermissible and have no
evidentiary support. See Price v. City of Philadelphia,
239 F. Supp. 3d 876, 900 n.17 (E.D. Pa. 2017) (Plaintiff

19a
cannot add new bases for legal claims claims in
opposing a motion for summary judgment); see also
Bell v. City of Philadelphia, 275 F. App’x 157, 160 (3d
Cir. 2008).
In sum, because Plaintiff has not shown that
he suffered any ascertainable loss, I will grant
summary judgment as to Count One.
Monthly Payment Increase
In Count Two, Plaintiff alleges that “the trial
payments under the temporary modification
agreement were set at $1,596.00 per month, but the
permanent modification agreement increased the
monthly payment to $2,307.00,” and that “this
increase in monthly installments was not disclosed to
the plaintiff,” in violation of the law. (Compl. ¶¶ 23–
25.) The record shows just the opposite.
In the October 31 letter, Citi explained the
Temporary Payment Plan in detail, and advised
Plaintiff that his monthly payment might increase:
“Your new monthly payment will include an escrow for
property taxes, insurance and other escrowed
expenses. If the cost of your property taxes, insurance
or other escrowed expenses increases, your monthly
payment will increase as well.” (Def.’s App. Ex. I at
7.) Moreover, although Plaintiff alleges that “it
appears that CitiMortgage has additionally charged
plaintiff for the difference between the two figures
without explanation,” he again offers no supporting
evidence. (Opp. Summ. J. at 7.) Plainly, Plaintiff
cannot demonstrate any false, deceptive, or
misleading representation with regard to the monthly
payment increases.

20a
In sum, I will also dismiss Count Two.
B.
FCEAU/UTPCPL
Upon TILA

Claim

Predicated

Plaintiff bases his third FCEAU and UPTCPL
claim on the Truth in Lending Act. (Compl. ¶¶ 29–
31.) This is frivolous: a violation of TILA plainly is not
grounds to recover under the FCEUA or the UTPCPL.
Plaintiff thus cannot prevail on this claim as a matter
of law. Garczynski v. Countrywide Home Loans, Inc.,
656 F. Supp. 2d 505, 514–15 (E.D. Pa. 2009) (“Many
judges in this District have rejected Plaintiffs’
argument that TILA and RESPA violations are per se
violations of the UTPCPL.”); Morilus v. Countrywide
Home Loans, Inc., 651 F. Supp. 2d 292, 309 (E.D. Pa
2008) (no legal authority showing that a TILA or
RESPA violation is a per se UTPCPL violation);
Christopher v. First Mutual Corp, No. 05-0115, 2008
WL 1815300, at *13–15 (E.D. Pa. Apr. 22, 2008)
(same).
Moreover, Plaintiff alleges that Citi violated
TILA (and thus the FCEUA/UPTCPL) by failing to
disclose that “the permanent monthly installment
would increase from $1,596.00 per month to $2,307.00
per month.” (Compl. ¶ 29.) As I have discussed, the
evidence shows just the opposite. Accordingly, even if
Count Three had a basis in law, it has none in fact.
Three.

In these circumstances, I will dismiss Count

21a
C. Breach of Contract
Plaintiff’s fourth claim against Citi is that
“Defendant’s increasing the temporary mortgage
installment from $1,596.00 to $2,307.00 significantly
increased the amount of the modified mortgage
payment,” and constitutes a breach of contract. This
is unpersuasive.
Under Pennsylvania law, a party alleging
breach of contract must establish: “‘(1) the existence of
a contract, including its essential terms, (2) a breach
of a duty imposed by the contract[,] and (3) resultant
damages.’” Ware v. Rodale Press, Inc., 322 F.3d 218,
225 (3d Cir. 2003) (quoting CoreStates Bank, N.A. v.
Cutillo, 723 A.2d 1053 (Pa. Super. Ct. 1999)). Courts
in this District have found that, at the very most, a
trial payment plan can obligate a mortgagor to “either
offer a modification agreement or send . . . a written
denial.” Cave v. Saxon Mortgage Servs., Inc., No. 114586, 2012 WL 1957588, at *5–6 (E.D. Pa. May 30,
2012).
Although his Complaint is a mass of confusion,
it appears that Plaintiff believes the October 31 letter
constitutes a contract that Citi breached because the
permanent modified monthly payments were higher
than the temporary payments. First, there was no
contract guaranteeing a permanent loan modification:
although Plaintiff made the required trial period
payments, the October 31 letter did not entitle him to
a permanent modification. See, e.g., Fennimore v.
Bank of America, N.A., No. 14-06883, 2015 WL
7075814, at *6–7 (E.D. Pa. Nov. 12, 2015).

22a
Moreover, in its letter, Citi nowhere promises
what the modified permanent payments would be. To
the contrary, Citi warns that the monthly payments
could increase, particularly if Plaintiff had an escrow
shortage: “Your new monthly payment will include an
escrow for property taxes, insurance and other
escrowed expenses. If the cost of your property taxes,
insurance or other escrowed expenses increases, your
monthly payment will increase as well.” (Def.’s App.
Ex. I at
7.) Plaintiff’s allegation that “Defendant’s
increasing the temporary mortgage installment from
$1,596.00 to $2,307.00” constitutes a breach of
contract is thus ludicrous.
I thus will dismiss Count Four.
V. CONCLUSION
In sum, Plaintiff’s Complaint is baseless and his
arguments against Defendant’s Motion are frivolous.
Accordingly, I will grant Defendant’s Motion for
Summary Judgment in full.
An appropriate Judgment follows.
AND IT IS SO ORDERED.
/s/ Paul S. Diamond
_______________________
February 26, 2020
Paul S. Diamond, J.

